                                                                Issue Date
                                                                         April 10, 2012
                                                                 
                                                                Audit Report Number
                                                                             2012-KC-0001




TO:         Roger E. Miller, Deputy Assistant Secretary, Office of Healthcare Programs, HI

            //signed//
FROM:       Ronald J. Hosking, Regional Inspector General for Audit, 7AGA

SUBJECT: HUD Generally Established Controls Over the Section 242 Program but Used an
           Outdated Handbook, and Its Guidance Had Not Been Cleared Through
           HUD’s Directives System


                                   HIGHLIGHTS

 What We Audited and Why

              We reviewed the U.S. Department of Housing and Urban Development’s (HUD)
              Section 242 Mortgage Insurance for Hospitals program. We initiated the review
              as part of our national annual audit plan. Our objectives were to determine
              whether HUD established controls to approve and administer projects under the
              Section 242 program and whether HUD used an updated handbook to administer its
              Section 242 program and used and provided to program participants written
              guidance that had been approved through HUD’s Directives System.

 What We Found
             HUD generally established controls to approve and administer projects under the
             Section 242 program. However, the Office of Healthcare Programs used an
             outdated handbook to administer its Section 242 program, and the written
             guidance it used and provided to participants had not been cleared through HUD’s
             Directives System. As a result, HUD provided conflicting guidance.
What We Recommend
           We recommend that the Deputy Assistant Secretary, Office of Healthcare
           Programs, (1) continue to place a priority on developing an updated handbook and
           ensure that it is implemented in a timely manner and (2) submit its written
           guidance for approval through HUD’s Directives System.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response
           We provided the draft report to the Office of Healthcare Programs on March 27,
           2012, with a request for written comments by April 25, 2012. The Office of
           Healthcare Programs generally agreed with our finding and recommendations. It
           did not provide written comments.




                                            2
                          TABLE OF CONTENTS

Background and Objectives                                                       4

Results of Audit
      Finding 1: HUD Used an Outdated Handbook, and Its Guidance Had Not Been   6
      Cleared Through HUD’s Directives System

Scope and Methodology                                                           9

Internal Controls                                                               10

Follow-up on Prior Audits                                                       12




                                          3
                       BACKGROUND AND OBJECTIVES

The Housing and Urban Development Act of 1968 added a new Section 242 to Title II of the
National Housing Act, which authorized the U.S. Department of Housing and Urban Development
(HUD) to provide Federal Housing Administration-insured mortgage loans to facilitate the
construction and substantial rehabilitation of hospital facilities. As of the end of fiscal year 2011,
there were 101 active loans totaling more than $9 billion in original loan amounts. The purpose
of the Section 242 program is to encourage the provision of comprehensive health care, including
outpatient and preventive care as well as hospitalization, to all residents of a community regardless
of their ability to pay.

The Office of Healthcare Programs, located within the Office of Housing, is responsible for the
overall management, oversight, and policy development of the Section 242 program. Under the
Office of Healthcare Programs, the Office of Hospital Facilities administers and monitors the
program, and the Office of Architecture and Engineering provides technical support. The Office of
Healthcare Programs’ primary offices are located in Washington, DC, and New York City, with
out-stationed staff in St. Louis, MO, Ft. Worth, TX, and Jacksonville, FL.

HUD requires hospitals to take certain steps, both before they apply for mortgage insurance and as
part of the application process. Hospitals must compare their organizational structure, services
provided, nature of the project, and financial status with the program’s minimum requirements. If
they meet these requirements, HUD requests additional information regarding their market need,
project description, business plan, and historical financial results. HUD then determines whether to
invite the hospital to attend a preapplication meeting. The preapplication meeting is an opportunity
for the potential borrower to summarize the proposed project and for HUD to summarize the
application process. Following the meeting, HUD may invite the hospital to submit an application
for mortgage insurance if HUD sees no issues that could affect the eligibility or underwriting of the
project.

The application generally takes up to 5 months to prepare, and HUD has an additional 4 months to
review it. Among other items, hospitals must submit a financial feasibility study containing historic
and forecasted financial statements and ratios, a financing plan, and information about market
demand. In reviewing each application, HUD hires consultants to evaluate the feasibility of each
proposed project and makes site visits as additional, independent checks on the viability of the
project.

HUD uses a regulatory agreement to monitor the insured hospitals. According to the agreement,
hospitals are required to submit financial, operational, and construction progress reports to HUD.
Certain reports are prepared by external auditors and include an assessment of compliance with
Federal program requirements. HUD uses these submissions to assess and rank hospitals according
to risk of claim. Riskier hospitals are more closely monitored by senior program staff.

On February 28, 2006, the Government Accountability Office reported that the Section 242
program and risk management could be enhanced. Specifically, the Government Accountability
Office recommended that HUD update the Section 242 program handbook to make publicly

                                                   4
available current eligibility requirements, policies, and procedures. HUD provided comments
stating that the program area planned to complete the full handbook and enter it into clearance no
later than November 2009. This recommendation was still open when we started our review and
was included as part of our objectives.

Our objectives were to determine whether HUD established controls to approve and administer
projects under the Section 242 program and whether HUD used an updated handbook to administer
its Section 242 program and used and provided to program participants written guidance that had
been cleared through HUD’s Directives System.




                                                5
                                RESULTS OF AUDIT

Finding 1: HUD Used an Outdated Handbook, and Its Guidance Had
Not Been Cleared Through HUD’s Directives System
The Office of Healthcare Programs used an outdated handbook to administer its Section 242
program, and the written guidance it used and provided to participants had not been cleared
through HUD’s Directives System. This condition occurred because management did not make
following the HUD Directives System a priority. As a result, HUD provided conflicting
guidance.


 HUD Used an Outdated
 Handbook and Guidance That
 Had Not Been Cleared Through
 Its Directives System


              HUD’s Office of Healthcare Programs used Handbook 4615.1, Mortgage Insurance
              for Hospitals, last updated in May 1984, which included requirements that are no
              longer relevant to the Section 242 program. For example, the handbook instructed
              the hospitals and lenders to direct their correspondence and submissions to program
              offices that no longer exist. In addition, the handbook provided information that
              does not apply to current construction documents and procedures.

              To provide current and relevant instructions, the Office of Healthcare Programs
              developed guidebooks and various training materials, which it provided to the
              Section 242 program participants via its Web site. However, this guidance had not
              been cleared through HUD’s Directives System. HUD’s Directives System provides
              HUD program managers with the means to effectively convey instructions to users
              and document policies and procedures within the framework of established laws and
              regulations. In part, the Directives System is designed to ensure that the guidance is
              kept up to date, includes all current information essential to program delivery, is
              canceled when no longer useful, and does not contradict itself or serve cross-
              purposes.


 Management Did Not Make
 Following the Directives System
 a Priority

              The condition described above occurred because management did not make
              following the HUD Directives System a priority. When the Office of Healthcare
              Programs was given the sole responsibility for approving and administering the

                                                6
             Section 242 program, management focused on merging the various divisions and
             expanding the Office of Healthcare Programs. Additionally, management waited
             for impending changes in the program requirements before submitting the
             guidance for approval through the system.

HUD Provided Conflicting
Guidance
             As a result of not following its established process, HUD provided conflicting
             guidance. Some of the guidance provided on HUD’s Web site conflicted with
             statutory requirements. Regulations at 24 CFR (Code of Federal Regulations)
             16(a)(1) and (3) require that independent studies of market need and financial
             feasibility be submitted with the application to participate in the Section 242
             program. However, the preapplication and application guidebooks, which had not
             been cleared through HUD’s Directives System, contained provisions that
             contradicted the regulations and allowed hospitals that met certain requirements to
             not submit the studies. One of the four hospitals reviewed did not submit these
             two required independent studies. In addition, information provided on HUD’s
             Web site sometimes conflicted with other information on the site. For example,
             the historical operating margin, an important underwriting indicator, was
             calculated differently according to the preapplication guide, the applicants’ guide,
             and the presentations provided on HUD’s Web site.

             As the result of the outdated and conflicting guidance, representatives from the
             four hospitals reviewed indicated that they relied heavily on verbal
             communications with HUD staff.

Conclusion

             To ensure that it provides current, consistent, and relevant instructions, HUD
             needs to update the handbook in a timely manner and submit its written guidance
             for approval through HUD’s Directives System before providing the guidance to
             program participants. According to Office of Healthcare Programs officials,
             management was updating the handbook and would soon submit it for clearance.

Recommendations



             We recommend that the Deputy Assistant Secretary, Office of Healthcare Programs,

             1A. Continue to place a priority on developing an updated handbook and ensure
                 that it is implemented in a timely manner.




                                              7
1B. Submit its written program guidance for approval through HUD’s Directives
    System and require future written guidance to be cleared through the
    Directives System before providing the guidance to program participants.




                              8
                         SCOPE AND METHODOLOGY

We conducted the audit fieldwork at HUD headquarters in Washington, DC, between October
2011 and February 2012. Our audit period was October 1, 2009, through September 30, 2011.

To accomplish our objectives, we

      Reviewed background information for the Office of Healthcare Programs.
      Reviewed HUD regulations, Office of Management and Budget Circular A-123,
       regulatory agreements and riders, program handbooks, and written policies and
       procedures provided by the Office of Healthcare Programs and located on the program
       Web site.
      Reviewed the Office of Healthcare Programs’ procedures for approving, processing, and
       monitoring the hospitals from the application phase through initial endorsement,
       construction, final endorsement, and the repayment period. We reviewed the
       preapplication package, the application package, financial statements, the draw requests,
       and the final endorsement package submitted by the hospitals to HUD.
      Reviewed internally generated reports used by the Office of Healthcare Programs to
       evaluate the applicant hospitals.
      Interviewed Office of Healthcare Programs staff.
      Interviewed the chief executive officers and chief financial officers from the four
       hospitals in our sample.
      Interviewed representatives from the lenders for the four hospitals in our sample.

As of the end of fiscal year 2011, there were 101 active loans totaling more than $8 billion in
unpaid principal balances. We selected four hospitals, with original mortgage amounts totaling
more than $163 million, to review. We selected the one hospital that HUD approved using a
streamlined application process that did not comply with the regulations. For the remaining
three hospitals, we determined the six hospitals with final endorsement dates during our audit
period and then selected the three hospitals with the lowest ratings on the Office of Healthcare
Programs’ Early Warning Report, dated March 2011. A lower rating indicated a higher risk.

We used the hospital financial and mortgage data maintained by HUD in the Multifamily Data
Mart, the Integrated Real Estate Management System, and the Hospital Mortgage Insurance
Management Information System for background information and in selecting our sample of
loans. We did not rely on the data to base our conclusions. Therefore, we did not assess the
reliability of the data.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.



                                                9
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
               We determined that the following internal controls were relevant to our audit
               objectives:

                     Controls to ensure that the participants are approved and the Section 242
                      program is administered in accordance with HUD requirements.
                     Controls to ensure that HUD’s handbooks and guidance provided to
                      participants were up to date and had been cleared through the HUD
                      Directives System.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiency


               Based on our review, we believe that the following item is a significant deficiency:

                     HUD lacked controls to ensure that its program handbook was current and
                      that all of its guidance provided to participants had been cleared through
                      the HUD Directives System.

                                                 10
Separate Communication of
Minor Deficiencies


         Minor internal control and compliance issues were reported to the auditee in a
         separate memorandum dated April 10, 2012.




                                          11
                  FOLLOW-UP ON PRIOR AUDITS


Hospital Mortgage Insurance
Program – Program and Risk
Management Could Be
Enhanced, GAO-06-316


           In the Government Accountability Office report number GAO-06-216, “Hospital
           Mortgage Insurance Program – Program and Risk Management Could Be
           Enhanced,” dated February 28, 2006, the Government Accountability Office
           recommended that HUD update the program handbook to make publicly available
           current eligibility requirements, policies, and procedures. HUD’s corrective
           action plan for this recommendation was to have a complete handbook entered
           into clearance no later than November 2009. The completion date was revised to
           December 2011. This recommendation is still open.




                                         12
